Pet.App. 1a

Estadojt|bre Asociado de Puerto Rico
TRIBUNAL DE APELACIONES
PANEL VIII

GLENDA I. LEBRON
VAZQUEZ

Apeladdn procedcnte
del TYibunal do
Primera Instanda,
Sala Superior de
Caguas

Demahdartb-Apzlada
V.

DAMIAN CRUZ

KLAN202000838 CasoNtim.
i
E DI2008-071D (609) j

Oxmahdaoo-Afelahtb

Sobre:
tilVORCIO
r,_______________
.(3EPARACI0N)
Panel integrado por su presidente el Juez Hem&ndcz Sdnchez, la
Jueza Bngnoni Mfirtir y la Jueza Grana Martinez.
Grana Martinez, Jueza Ponente
SENTENCIA
I En San Juan, Puerto Rico, a 22 de febrero de 2021.
I

El senor Dami&n Cruz presento un recurso apelativo, por
dereebo propio, ante nos el 14 de octubre de 2020, en el cual

I especifica que no se somete a la jurisdiccldn de este tribunal. En su
I esento, este cuestiona la determinacidn emitida por cl Tribunal de
Prixnera Instanda del 19 de septiembre de 2020, en la ciialel foro
I primario le indied dcbla presentar su redamaddn ante la
Adxninistraddn de Sustento de Menores (ASUME). Los hechos j
I f&cticos que preceden esta controversia, segdn expuestos en el
I eacrito de apeladdn, se detallan a continuaddn.
1

El apelante alega haberse casado con la recurrida, senora
Glenda I. Lebron Vdzquez, en New York. Sostuvoqye el matrimpnio
lue disuelto el 17 de octubre de 2008, fecha en que el Tribunal de
i- ■

j Pnmera Instanda dietd sentenda eri rebeldia en suebntra, en el
pteito sobre divorcio ndmero E DI200800710. Surge del expediente
I del TPI, que el apelante fue emplazado mediante edicto, toda vez que
la recurrida alegd desconocer su paradero. Adem&s, el TPI establecid
I el 5 de noviembre de 2008, una pensidn alimentaria a ser satisfecha
Nflmcro Identiccudor
SEN202I

f •

1

Pet.App. 2a
*4

2

KLAN202000838

a travds de ASUME, par la canddad dc $260 mensualis y reconbpid
una deuda previa de $1,204.66.
Asl las cosas, el apelante arguy6 en su escrito que, el 29 de
agosto de 2005, fue total y permanentemente incapadtado por la
del Seguro Social. Certifica haber solidtado, el 31 dc
enero de 2006, beneficios auxiliares a la Admtaistracidn del Seguro
Social para la apelada y su htfa menor de edad.
El npMante aaevera que,

Departamento de la Familia del

Condado de Erie de la cuidad de Buffialo en Nueva York aaumio la
jurisdlccidn original y exclusive sobre su persona para dilucidar
cuestiones, relatives a pension alimentaria, bqjo el caso ndmero
BQ16329N1. Arguye que, en dicho caso, se emitid una orden final
en la cual se determind que no tenia obligacidn legal de pager
p<»naiAn alimentaria de confonnidad con el Cddigo Federal, 45 CFR
303.11 (b)(9). No acompafia copia de dicho documento con su
escrito.
En cuanto a la sentejncia en rebeldia antes mencionada,
nfirmn que el foro primario emitid una sentenda disolviendo el
mntrimnnlo y resolviendo que mantendria la pensidn alimentaria de
$260 mensualcs, segftn rccomendada por la Examinadora de
Pensiones Alimentarias, adem&s de reconocer una deuda inexistente
en su contra. Afirma no tener reparo en cuanto a la jurisdiccldn
sobre su persona para efectos del divordo por la causal de
separation, pero rechaza que exista jurisdiction sobre su persona
para haber establecido una pension alimentaria.
Explica que, confonne esta sentenda, ASUME gerierd d caso
de pensidn alimentaria ndmero 0434570, que hoy en dia continda
vigente y acumulando balance. Esto le ha ocasionado problemas,
pues se vc imposibilitado de obtener un pasaporte y se ha impactado
negativamente su historial de crddlto.

Pet.App. 3a

KLAN202000838

-

•f

.. . . 3

El apelante alega que desde el 2012, la apelada ha reportado
varies direcdoneB tesideaciales domicilifirias ea Pennsylvania! New
York y Florida. Sostiene que deade el 2018, hasta el dla de hoy, la
menor es residente domiciliada en Florida, por lo que Insiste en que
no hubo nl hay jurisdiccifin para imponer una pension alimentaria
en su contra.
El apelante manifiesta que duranto loa afios que la menor no
ha residido en Puerto Rico, ASUME ha continuado acumulando
balances, por lo que solidtd auxilio al Tribunal de Primera Instanda
alegando falta de jurisdicciOn sobre su persona.
Por illtimo, alega que la Regia 42.4 de Procedimiento Civil
implde conceder un remedio de naturaleza distinta a los solicitado
en la Demands, cuando el demandado se encuentra en rebeldia.
Implies que en la Demanda de divorcio no se solicits pension
alimentaria alguna.
El 10 de septlembre de 2020, el foro primario notified al
apelante que, toda vez que no reconocla la jurisdicd6n del tribunal,
debla hacer su reclamo ante ASUME. Inconforme, el apelante
presentO Moddn de reconsidemddn mediante comparecenda
especial, que fire declarada sin lugar el 8 de octubre de 2020.
En su recurso ante este tribunal, el apelante aduce que el TPI
cometiO tres enures, los cuales consignamos segun presentados a
continuadOn.
1) La resoluciOn del Tribunal de Primera Instanda es
errdnea debido a que ASUME carece de autoridad en
ley para modiflear, enmendar o corregir errores de
formacontenjdoa en la-.sentenda de divordoya que •
tal autoridad correspondia al Tribunal de Primera
Instanda pert) que ahora solamente le corresponde
al Tribunal de Apelaciones de conformidad con la
Regia 49.1 de las Reglas de Procedimiento Civil de
Puerto Rico. Esta alegadOn tiene atin mayor
veracidad al considerar que el Tribunal de Primera
instanda actud por iniciativa propia sin que la
demandante/apelada lo solidtara y al considerar

Pet.App. 4a

* «

KLAN202000838
qu*8iel TfiBatfifl debib conaiderar como admitidag por
la parte apelada las alegadonca del apolante quo no
flieron objetadas segiln lo establece la Regia 6.4 de
las Reglas do Proccdimiento Civil de Puerto Rico.

4
.

i

2) La resolucibn del Tribunal de Primera Instanda es
err6nea dcbido a que espedficamente para el caso de
divorcio el Tribunal obtuvo y cjurcib jurisdiccibn
sobre la persona del apelante mediants la rebeldla
anotada por lo que no exists ninguna causal
jurisdiccional que impldiera al Tribunal de Primera
Instanda corregir los enures de forma pepudiciales
contenidosen la sentenda de divordo yauidliar ante
la falta de jurisdicdbn para un caso de alimentos.

I

3) La resolucibn del Tribunal de Primera Tmftimrf* es
contraria a derccho debido a que la regia 42.4 de las
Reglas de Procedimiento Civil de Puerto Rico
establecen que una sentenda emitida en rebeldla no
podrfi ser de naturaleza dlstinta a la solidtud
incoada en la demanda. Es dccir, el Tribunal end al .
refcrir el asunto a ASUME debido a que Puerto Rico
carece de jurisdicdbn para dfluddar cuestlones
relatlvas a un caso de alimentos.
4) La resolucibn del Tribunal de Primera Instanda es
errbnea debido a que New York fue el cstado que
detcrminb la filiacibn patema del apelante sobre la
menor mediante la emisibn del certUIcado de
nadmlento y la ley ‘New York Family Court Act* (sic)
establece que d Estado de New York tendrb
jurisdicdbn original y exdusiva para emitir brdenes
de pensibn alimentaria en los casos que el Estado de
New York haya determlnado la iiliadbn patema de
conformidad con N.Y. Fam. Ct. Act § 511. Tambibn
es errbnea debido a que previo al caso de divordo el
estado de New York asumib y ejercib su jurisdicdbn
original-exduslva sobre la persona del apelante y
sobre el caso de alimentos sobre d cual emitib una
orden final de pensibn alimentaria.

I
(
I
I
I
I
I
I
I
I
I
I
I
|

i

Sostiene que es un asunto resuelto por jurisprudenda estatal I
y federal, que los tribunalea no podrbn asumir jurisdicdbn ni dictar
sentenda a espedficamente en casos de alimentos contra una I
persona que no reside dentro de su territiorio. Cita a Kulko v.
CaUformia Superior Court, 436 US 84 (1978) e bid. Sidertkrgica v.
Thyssen; 114 DPR-548"(1983j.~Afirmarque ASUME, por el lenguajc-j
de la Sentenda en el caso de divordo, origlnb sin Jurisdicdbn un I
caso de alimentos que hoy en dia cohtintla increment&ndose la I
canddad, aun en los perfodos en los cuales la menor no ha estado I
rcsidiendo en Puerto Rico. Sostiene que la Ley Uniforme Interestatal

•n

Pet.App. 5a

* '

T--••||*

‘'KLAN202000838 •

f «•.

....... S~ ..

sobre allmentos pant la familia establcce qus Puerto Rico no podrA
mndificHr una orden de pensidn alimentaria emillda por otro estado
de conformidad con 8 LPRA aec. 1301 (b). Asl tambidn incluye que
la Ley Intcrcstatal Uniforme de Allmentos entre parienteB establece
que, cuando un tribunal emlte una orden de pensidn alimentaria,
.eate manfcendrA jurisdieddn exclusive sobre dlcha orden y Puerto
Rioo reconocerA la jurisdieddn del tribunal que la emitid de
conformidad con 8 LPRA sec.542 (d)(d).
El apelante nos solicita que: determlnemos que no hay
jurisdiccidn sobre la materia ni sobre su persona para un caso de
allmentos y corrjjamos los errores de la sentenda de divorclo del
2008, ordenando a ASUME cerrar el caso de allmentos con balance
de negative y retirar cualquier referenda a las agendas estatales,
federales, publlcas o privadas sobre el asunto de la pensidn y la
alegada deuda.

n
. El punto de comienzo de un pldto lo constituye la
presentaddn de una demanda en d tribunal. 32 LPRA Ap. V, R. 2.
Los tribunale3 de Puerto Rico ostentan jurisdioddn para resolver
todo tipo de casos y controversias. Ahora bien, la jurisdieddn es el
poder o la autoridad de un tribunal para conslderar y decldlr casos
o controversias. En ausenda de jurisdieddn, d tribunal no dispone
de poder o autoridad para atjjudicar una controversla. Allied
Management Group, Inc. v. Oriental Bank, 2020 TSPR 52, en la pag.
\ 5......

11; Peerless Oil v. Hermanos Pirez, 186 DPR 239,249 (2012).
Como prindpio b&sico de derecho Jnternadonal pdblico, los
tribunales de Puerto Rico solo pueden adquirirjurisdieddn sobre las
>ersonas que residen en eus limites territoriales. Exiaten ciertas
excepciones a la norma general antes expuesta impulsadas por las

».

— i..

„ I

.

Pet.App. 6a

KLAN202000838

•

6

complejldastea dc Ift • soctedad moderns. Entre ellaa y, por su I
pertinencia, el Tribunal General de JuBtida tendril jurisdiction:... I
(2) sobre las personas domiciliadas y las no dnmfcm..^nn que ^gan
cualquier contacto que haga compatible la jurisdicddn con las
dlsposidones constitucionales apllcables....32 LPRA Ap. V, R. 3.1.
Ahora bien, se adquiere jurisdiction sobre un no

I

cuando ha habido sumisidn express o t&clta. Por ejemplo, un I
demandante que acude a los tribunates de un estado donde no est& I
domiciliado, no puede luego pretextar que no hay jurisdiction sobre
su persona, cuando toca adjudicar una reconvencidn instoda contra I
este en cl mismo pteito. Sterzlnger v, Ramirez, 116 DPR 762, 189
(1985). *[W]c have held that a party has consented to personal J
jurisdiction when the party took some kind of affirmative act-1
accepting a forum selection clause, submitting a claim, filing an
action-that fairly invited the court to resolve the dispute between I
the parties." Adam v. Saenger, 303 US 59, 67 (1938). La felta de {
I jurisdicddn sobre la persona se puede renunciar, express o
tacjtamente. Trans-Oceania Life Ins. v. Oracle Corp., 184 DPR 689, l‘
I 701-702 (2012); M&rquez v. Barreto, 143 DPR 137,143 (1997),
I

Ahora bien, cuando un no domiciliado, como en el caso que
nos ocupa, comparecey presents unarcclamacion ante nuestro foro
y expresamente consigns que no se somete" a la jurisdiction de

I nuestros tribunales, priva de jurisdicddn a este tribunal. NOtese que
j no estamos ante tins sumisidn tacita que conccdcria antorMaH a
I nuestro tribunal para considerar la controversia. No nos
I encontramos ante una parte que.comparece voluntariamente y
I realiza algOn acto sustancial que le constituye como parte en el
pteito, somettendose ast a la jurisdicddn del Tribunal Qume Caribe,
Inc. v. Sriode Hacienda, 153 DPR 700,711 (2001). Los hechos ante
I nuestra consideraddn reflejan que d apelante presentd una moddn
mediant* comparecenda especial, en la cual solidtd un remedio

i

Pet.App. 7a
A

'KEAN2O20O083&------

7

.* •

contra ASUME en cuanto al relevo de una deuda per concepto de
una pensldn alimehtaria que, cs final y firme desde el 2008. En su
cscrlto, el apelante expresamente consignd, que su solidtud la
efectuaba "sin someterse a la jurisdlccidn de este o cualquicr otro
foro dentro de la jurisdiction territorial de Puerto Rico.* De manera
que, no estamos ante una sumisidn t&dta de una persona no
domidliada, sino ante una reserva expresamente consignada por el
apelante que, a pesar de solicitor un remedio al foro primario,
explltitaraente consigna que lo que 6ste determine no tendril poder
sobre <L
Las controrerslas jurisdicdonales, como anticip&ramos,
deben ser resueltas con preferencia, y de carecer un tribunal de
jurisdiction, lo unico que puede hacer es asi declararlo. Conzdlez v.
Mayagdez Resort & Casino, 176 DPR 848, 856 (2009); P&rezRosa v.
Morales Rosado, 172 DPR 216, 222 (2007). Por lo tanto, no err6 el
Tribunal de Primera Instancia al rechazar ejercer su autoridad,
conforme la reserva express del apelante a someterse a su
. urisdicti6n y referir su reclamo ante la ASUME.

m
Por todo lo antes expresado, se confirma la determination del
foro primario.
Lo pronuntid y lo manda el Tribunal y lo certifica su
Secretaria.

Secretaria del Tribunal de Apelaciones

5 '

foatttifrmo>int*MN
«*IOVMnpiMBpOl)M

r-

. •«

*•

♦

eg *ddv;ad

••
«

Pet.App. 9a

VERBATIM ENGLISH TRANSALTION OF
APPENDIX A
DECISION OF PUERTO RICO COURT OF APPEAL AFFIRMING TRIAL COURTS
DECISION

Prepared by: Damian Cruz, Petitioner as pro se

Pet.App. 10a

IN THE GENERAL COURT OF JUSTICE, COURT OF APPEAL
IN AND FOR SAN JUAN, PUERTO RICO
Appeal from Trial Court of
Caguas, Puerto Rico

GLENDA I. LEBRON
VAZQUEZ
PLAINTIFF-APPELLEE.
V.

APPEAL CASE NO.
KLAN202000838

Trial Court Case No.
E DI2008-0710 (609)
Trial Court Case Subject Matter:
Divorce (Separation)

DAMIAN CRUZ
DEFENDANT-APPELLANT.

Panel VIII: Presiding Judge Hernandez Sanchez! Panel Judge Brignoni Martir, Panel
Judge Grana Martinez.
Grana Martinez, Reporting Judge.
RESOLUTION
In San Juan, Puerto Rico on February 22nd of 2021.
Mr. Damian Cruz presented an appeal as pro se before us on October 14th of 2020 in
which specify that he do not submit to the jurisdiction of this court. In his request, he
questioned the determination issued by the Trial Court on September 19th of 2020 in
which the Trial Court forum indicated that he should present his claim before the
Administration for Child Support (ASUME). The facts that precede this controversy, as
were stated in the request, are the followings.
I
Appellant allege got married with the Appellee, Ms. Glenda I. Lebron Vazquez, in
New York. Maintain that their marriage was ended on October 17th of 2008, date when
the Trial Court issued a resolution in default against him for the divorce case number E

PetApp. 11a
DI200800710. From the Trial Court’s records arose that Appellant was served through
publication when the Appellee claimed she did not know where he was. In addition, the
Trial Court established on November 5th of 2008 a child support payment to be satisfied
through ASUME for the amount of $260 per month and recognized a previous debt of
$1,204.66.
As it is, the Appellant argue in his writing that on August 29th of 2005 was total and
permanent disable by the Social Security Administration. Certify had request on January
31st of 2006 auxiliary benefits to the Social Security Administration for the Appellee and
his daughter minor of age.
Appellant assert that the Department of Family of Erie County in Buffalo City New
York assumed the original and exclusive jurisdiction over his person to resolve issues
related to child support payment under the case BQ16329N1. Argue that in such case was
entered a final order in which was determined that he does not have the obligation to pay
child support in accordance with the Federal Code, 45 CFR 303.11(b)(9). Did not include
copy of such document with his request.
With regard the resolution issued in default previously mentioned, affirm that the
Trial Court issued a resolution ending the marriage and resolving that will maintain the
child support monthly payment of $260 recommended by the Examiner of Child Support
Payments, besides of recognized an existing debt against him.

Affirm do not have

objection about the jurisdiction over his person for the divorce by separation but deny that
jurisdiction exist over his person to established a child support payment.
Explain that, base on this resolution, ASUME generate the child support case
number 0434570 that until today continues open and accumulating balance. This caused

Pet.App. 12a

problem due to he is unable to obtain a passport and his credit history has been negative
impacted.
Appellant allege that since 2012, Appellee has reported different residential
domiciliary addresses in Pennsylvania, New York and Florida. Sustain that since 2018
until today’s the minor is a resident domiciliary in Florida why he insist there wasn’t nor
there is jurisdiction to impose a child support against him.
Appellant manifest that during the years the minor has not resides in Puerto Rico,
ASUME continue accumulating balances, for why requested aid from the Trial Court
alleging lack of jurisdiction over his person.
Lastly, allege that Rule 42.4 of Civil Procedure prevent to grant a remedy different
in nature than what was requested in the lawsuit while Appellant is in default. Implied
that in the divorce lawsuit was not requested a child support.
On September 10th of 2020, the primary forum notified the Appellant that since he
did not recognized the jurisdiction of the court he shall make his claim before ASUME.
Unsatisfied, the Appellant filed Motion for reconsideration through special appearance
that was overruled on October 8th of 2020.
In the appeal before this court, Appellant adduces that the Trial Court made three
errors, which we consigning below as were presented.
1) The Trial Court’s resolution is erroneous due to ASUME has lack of authority in law to
modify, amend or correct errors of form contained in the divorce resolution because
that authority corresponded to the Trial Court but now only correspond to the Court of
Appeal in accordance with Rule 49.1 of Puerto Rico Rules of Civil Procedure. This
allegation has more veracity when consider that the Trial Court acted by its own

PefcApp. 13a

Plaintiff-Appellee request it; and when consider that the court

initiative without the
should considered as
not objected as

admitted by the Appellee the Appellant’s allegations that were

establish Rule 6.4 of Puerto Rico Rules of Civil Procedure.

2) The resolution of the Trial Court is erroneous

due to specific for the divorce case the

court obtained and exercised jurisdiction over the person

of Appellant through the

that could prevent the
annotated default for why do not exist any jurisdictional cause
of form that prejudicial contained in the divorce
Trial Court correct the errors
resolution and aid at the absent of jurisdiction for a child support case.
3) The resolution of the Trial Court is contrary of law due to Rule 42.4 of Puerto Rico
resolution entered in default cannot be

Rules of Civil Procedure establish that a

different in nature from the one invoked in the lawsuit. That is to say, the Trial Court
erred by refer the matter to ASUME due to

Puerto Rico has lack of jurisdiction to

resolve issues related to a child support case.
4) The resolution of the Trial Court is erroneous
determined the Appellant’s paternal filiation
the birth certificate and the law of New

due to New York was the State that

over the minor through the issuance of

York Family Court Act’ establish that the

State of New York will have original and exclusive jurisdiction to enter orders of child
support in cases where the State

of New York has determined the paternal filiation

pursuant NX Fam. Ct. Act. § 511. Also, is erroneous due prior to the divorce case the
State of New York assumed and exercised its original-exclusive jurisdiction over the
person of the Appellant and over the child support case
about child support.

for which entered a final order

Pet.App. 14a

Sustain that it is a

matter resolved by federal and state jurisdiction, that the

in child support cases
courts cannot obtain jurisdiction neither enter orders specific
against a person who do not

reside within its territory. Cite Kulko v. California

Superior Court, 436 US 84 (1978); and Ind. Siderurgica v. Thysssen, 114 DPR 548
(1983). Affirm that ASUME, by the language in the divorce resolution, originated
without jurisdiction a child support case that until today continue increasing
amount even during the periods when the minor has not residing in Puerto Rico.
Sustain that the Uniform Interstate Family Support Act establish that Puerto Rico
cannot modify a

child support order issued by other state pursuant 8 LPRA sec.

1301 (b). Same, also include that the Uniform Interstate Law of Parents Support
established that when a court issue a child support order, that court will keep its
exclusive jurisdiction over such order and Puerto Rico will recognize the jurisdiction
of the court who issued it pursuant 8 LPRA sec. 542 (d)(d).
Appellant request us that: we determine that there is no in personam nor
subject matter jurisdiction for a child support case and correct the errors of the
divorce

resolution of 2008 ordering ASUME to close the child support case with

negative balance and remove any referral to the state, federal, public or private
agencies for the child support and the alleged debt.
II
The starting point of a case it’s constituted by the filing of a lawsuit at the court. 32
LPRA Ap. V, R. 2. Puerto Rico’s tribunals have jurisdiction to resolve any type of cases
and controversies. Now, the jurisdiction is the power or authority of a court to consider
and decide cases or controversies. In the absent of jurisdiction, the court has no power or

Pet.App. 15a

Oriental Bank, 2020
authority to resolve a controversy . Allied Management Group, Inc. v.
TSPE 52, pg. li; Peerless Oil v. Hernandez Perez, 186 DPR 239, 249 (2012).
As basic principle of international public law, the tribunals of Puerto Rico only can
obtain jurisdiction over the persons who reside within it territory limits.
exists to the general rule

Some exemptions

previously mentioned fueled by the complexities of modern

Among them and by its relevancy, the General Court of Justice will have

society

jurisdiction* ...(2) over domiciliary and non

domiciliary persons that have any contact that

make compatible the jurisdiction with the applicable constitutional dispositions. ..32 LPRA
Ap. V, R. 3.1.
Now, is obtained jurisdiction over a no domiciliary when there has been express or
tacit submission. For example, a plaintiff that goes to the courts of
domiciliary

state where is not

, cannot then pretext that there is no jurisdiction over his person at the time to

adjudicate a reconvention filed against him in the same
116 DPR 762, 189 (1985).

lawsuit. Sterzinger v. Ramirez,

“We have held that a party has consented to personal

kind of affirmative act-accepting a forum selection
jurisdiction when the party took some
clause, submitting a claim, filing an

action-that fairly invited the court to resolve the

dispute between the parties.” Adam v. Saenger,

303 US 59, 67 (1938). The absent of

Trans'Oceanic Life
jurisdiction over a person can be waive, in an express or tacit way.
Ins. V. Oracle Corp. 184 DPR 689, 701-702 (2012); Marquez v. Barreto, 143 DPR 137, 143
(1997)'.
Now, when a no domiciliary, as it is in this incumbent case, appear and present a
claim at our forum and expressing consign that he do not submit to the jurisdiction of our
courts, deprive this court from jurisdiction

Note that we are not before a tacit submission

Pet.App. 16a

which would grant authority to our court consider the controversy. We are not before a
party who appear voluntarily and make any substantial act that constitute as part of the
lawsuit, submitting to the court’s jurisdiction. Qume Caribe, Inc. v. Sno de Hacienda, 153
DPR 700, 711 (2001).

The facts before our consideration reflect that the Appellant

presented a motion through special appearance in which requested a remedy against
ASUME in regard for a relief of a debt for child support that is final and firm since 2008.
In his writing, the Appellant expressly consigned that he made his request “without
submitted to the jurisdiction of this or any other forum within the territorial jurisdiction of
Puerto Rico.” So, that way, we are not before a tacit submission of a no domiciliary person
but rather we are before a reserve expressly consigned by the Appellant that despite to
request a remedy to the primary forum, explicitly consign that what it determine will not
have power over him.
The jurisdictional controversies, as we anticipate, should be resolve with
preference and if a court has lack of jurisdiction, the only thing to do is declare it so.
Gonzalez v. Mayaguez Resort & Casino, 176 DPR 848, 856 (2009)> Perez Rosa v. Morales
Rosado, 172 DPR 216, 222 (2007). Therefore, the Trial Court did not err by deny its
authority in accordance with the reserve expressly of the Appellant to submit to its
jurisdiction and refer his claim to ASUME.
Ill
* For all the above stated, it is confirmed the primary forum determination.
It is pronounced and ordered by the Court and is certify by its clerk.
Attorney Lilia M. Oquendo Solis
Clerk of the Court of Appeal

PetApp. 17a
ESTADO LIBRE A30CIAD0 DE PUERTO RICO
TRIBUNAL GENERAL DE JUSTICIA
TRIBUNAL DE PRIMERA INSTANCIA
SALA DE CAGUAS-SUPERIOR
/

LEBRON VAZQUEZ, GLENDA I.
DEMANDANTS

CASO N6M. E DI2008-0710
SAL6N N6M.0609

VS.

SOBRE:
SEPARACIQN

CRUZ, DAMIAN
DEMANDADO
A:

CRUZ, DAMIAN
PO BOX 721037
ORLANDO FL 32872
NOTIFICACI6N
LEBRON VAZQUEZ, GLENDA I.
PO BOX 667
CIDRA PR 00739

(

SE TRANSCRIBE LA DETERMINACI6N A CONTINUAClON s
nTODA VEZ EL SR. CRUZ NO RECONOCE JURISDICCI6N DEL TRIBUNAL, DESERT
HACER SU RECLAMO ANTE LA ASUME.11
FDO.ROXANA VARELA FERNOS
JDESZ
ESTAE “Sa," SER

PARTE 0 SU REPRESENTANTE LEGAL EN EL CASO SUJETO A

REVISION O CERTIORARI, DE CONFORMIDAD CON EL
ESTABLECXDO POR LEY, REGLA 0 REGLAMENTO.

PROCEDIMIENTO Y

EN EL tHrMINO

v
*** »ETERMINACI6N EMITIDA POR EL TRIBUNAL FUE DEBIDAMENTE REGISTRADA
,
10 DE SEPTIEMBRE DE 2020 ,Y QUE SE ENVl6 COPIA DE ESTA NOTIFICACI6n
a
ANTES INDICADAS, A SUS DIRECCIONES REGISTRADAS EN EL CASO CONFORME
A LA NORMATIVA APLICABLE. EN ESTA MISMA FECHA FUE ARCHIVADA EN AUTOS COPIA DE ESTA
NOTIFICACION.
EN CAGUAS, PUERTO RICO, A 10 DE SEPTIEMBRE DE 2020.
CARMEN ANA PEREIRA ORTIZ
NOMBRE DEL (DE LA)
SECRETARIO(A) REGIONAL

Porsf/CARMEN VAZQUEZ TORRES
NOMBRE Y FIRMA DEL (DE LA)
SECRETARIO (A) AUXILIAR DEL TRIBUNAL

^oviembre^oie)^0 ^niCO de Nofcificaci6n-Sentencias/Resoluciones,6rdenes y Minutas

Pet.App. 18a

VERBATIM ENGLISH TRANSACTION OF
APPENDIX B
DECISION OF PUERTO RICO TRIAL COURT OVER MR. CRUZ’S MOTION THROUGH
SPECIAL APPEARANCE

Prepared by: Damian Cruz, Petitioner as pro se

Pet.App. 19a

IN THE GENERAL COURT OF JUSTICE, TRIAL COURT
IN AND FOR CAGUAS, PUERTO RICO
CASE NO. E DI2008-0710
HEARING ROOM NO. 0609

LEBRON VAZQUEZ, GLENDA I.
PLAINTIFF

ABOUT:
Separation

VS.

CRUZ, DAMIAN
DEFENDANT.
TO:

CRUZ, DAMIAN
PO BOX 721037, ORLANDO, FL 32872
NOTICE
LEBRON VAZQUEZ, GLENDA I.
PO BOX 667, CIDRA, PR 00739

The Clerk who subscribe certify and notify you that with regard Informative Motion In
Compliance Through Special Appearance, this Court issue a resolution on August 28th of
2020.
The determination is transcribed below:
“Since Mr. Cruz do not recognize the Court’s jurisdiction, shall make his claim with
ASUME.”
Signed by: Roxana Varela Fernos, Judge
You are advise that as a party or your legal representation in the case subject to this
resolution, can file an appeal, review or certiorari pursuant with the procedure and time
limitation prescribed by law, rule or proceeding.
Hereby it is certify that the determination issued by the Court was duly registered and
filed today’s September 10th of 2020, and copy of this notice was sent to the persons
indicated above to their address of record in the case in accordance with the applicable
rule. In this same date copy of this notice was filed in record.
In Caguas, Puerto Rico, on September 10th of 2020.
Carmen Ana Pereira Ortiz

By: /s/Carmen Vazquez Torres

Regional Clerk’s Name

Sub Regional Clerk of Court’s Name

OAT1812-Form Only for Notice-Judgments, Resolutions, Orders and Minutes (November 2016)

Pet.App. 20a

EN EL TRIBUNAL SUPREMO DE PUERTO RICO
• . )'
!
i»

Glenda I. Lebr6n V&zquez
Recurrlda
v.

AC-2021-0050 !

DamiAn Cruz

i

Peticionario

t

L.....
-

■■=-

i

—.—_______________________________

rbsoluciOn

En San Juan, Puerto Rico, a 25 de marzo de 2021.

!
!

Atendlda la Uocldn del apelante aolicltando orderi

I

■ provisional en auxllio de jurladiccidn qua presentd el
I Sr. Damian Cruz por derecho propio, se provee no hai
lugar.
:

Tras evaluar el Eacrlto de apelacldn del apelantd

Damidn Cruz que presentd el sefior Cruz, se acoge como'
un recursode certiorari, y se provee no ha lugar.
i

Lo acordd el TfS3uhdPy'cerklfi^fveivSecretarlo del '
'
Tribunal Supremo.
fJ
|
.

i

i

!•

rCampos Pdrez
'ribunal Supremo
l

I

i

\

i

■H

x:

I

.
\y- •

........•

X
,

* »x-. *****

-:-1

■

'

Pet.App. 21a
a

VERBATIM ENGLISH TRANSACTION OF
APPENDIX C
DECISION OF PUERTO RICO SUPREME COURT DENYING DISCRETIONAL
REVIEW

Prepared by: Damian Cruz, Petitioner as pro se

■

Pet.App. 22a

IN THE SUPREME COURT OF PUERTO RICO

Glenda I. Lebron Vazquez
Respondent
v.

AC-2021-0050

Damian Cruz
Petitioner

RESOLUTION
In San Juan, Puerto Rico, on March 25th of 2021.
Attended Appellant’s motion requesting a provisional order in aid of
jurisdiction that Mr. Cruz presented as pro se, it is denied.
After review the Appellant, Damian Cruz, ’s petition of appeal
presented by Mr. Cruz, it is deemed as a petition for writ of certiorari and
is denied.
It is agreed by the Court and certifies the Clerk of the Supreme Court.

Jose Ignacio Campos Perez
Clerk of the Supreme Court

X.
PetApp. 23a

Estado Libre Asociado de Puerto Rico
TRIBUNAL DE APELACIONES
PANEL VIII

GLENDA I. LEBRON
VAZQUEZ

Apeladdn procedente
del Tribunal de
Primera Instanda,
Sala Superior de
Caguas

Demajjdahte-Apklada
V. .

KLAN2020Q0838

DAMIAN CRUZ

Caso Ntixn.
E DI2008-0710 (609)

Demahdado-Apblahte

Spbre:
I
DrVORCIO
(SEPARACION)
Panel integrado por su presidente el Juez Hernandez Ranches, la
Jueza Brignoni M&rtir y la Jueza Grana Martinez.

RESOLUCldN
I En San Juan, Puerto Rico, a $3 de octubre de 2020.
Recibldo el recurso de epigrafe el 14 de octubre de 2020, tiene
I la parte apelada hasta el 13 de noviexnbre para presenter bu alegato
en oposicion al recurso.
Se solicita a la Secretaria del Tribunal de Primera Instancia,
Sala Superior de Caguas, que en el t£nnlno de dlez (10) dlas, a partir
de la notificacidn de esta Resolucidn, remita a este Tribunal los

■

autos originales del caso B DI2008-0710, en calidad de prestamo,
Lo pronuncid y lo manda el Tribunal y lo certifica su
'Secretaria.

0

0

Lcda. Lilia M. Oquendo Soils /iS*
Secretaria del Tribunal de Apelacioncs

NOmero Identificador
RE82020

Pet.App. 24a

VERBATIM ENGLISH TRANSALTTON OF
APPENDIX D
ORDER OF PUERTO RICO COURT OF APPEAL ACKNOWLEDGING THE APPEAL
AND DEADLINE FOR RESPONSE

Prepared by- Damian Cruz, Petitioner as pro se

Pet.App. 25a
IN THE GENERAL COURT OF JUSTICE, COURT OF APPEAL
IN AND FOR SAN JUAN, PUERTO RICO

GLENDA I. LEBRON
VAZQUEZ

Appeal from Trial Court of
Caguas, Puerto Rico

PLAINTIFF-APPELLEE.
APPEAL CASE NO.
KLAN202000838

V.

Trial Court Case No.
E DI2008-0710 (609)
Trial Court Case Subject Matter:
Divorce (Separation)

DAMIAN CRUZ
DEFENDANT-APPELLANT.

Panel VIII- Presiding Judge Hernandez Sanchez! Panel Judge Brignoni Martir! Panel
Judge Grana Martinez.

RESOLUTION
In San Juan, Puerto Rico on October 29th of 2020.
Received the above style petition on October 14th of 2020, the Appellant has until
November 13th to present her allegation in opposition to the appeal.
Is request to the Clerk of the Trial Court of Caguas, that within ten (10) days from
the receiving notice of this resolution submit to this Court the original records of the case
E DI2008-0710 as borrowed.
It is pronounced and ordered by the Court and is certify by its clerk.

Attorney Lilia M. Oquendo Solis
Clerk of the Court of Appeal

Identification Number
RES2020

Pet.App. 26a

:» .

ESTADO LIBRE ASOC!ABO DE PUERTO RICO
TRIBUNAL DE PRlMEFfA INSTANCIA
SALA SyPERIQROE CAQUAS
‘Vv

■

f

GLENDA I. LEBRON VAZQUEZ
DEMANDANTS
VS.
DAMIAN CRUZ
DEMANDADO

CIVIL NUM.: E DI2008-0710
SALA 609
SOBRE: DIVORCIO
(SEPARACldN)

SENTENCIA
La accidn del epfgrafg se Instd el 12 do Junto do2008, porta causal do
Separation.
Se

obtuvo Jurisdiction do la parte demandada mediants

emplazamlento; no hablendo contestado la demanda en el tdrmlno requerido
porLey, se le anotd la rebetdla.
Sefialada la Vista en Rebeldfa para el 17 de otiubre de 2008,
compatetid la demandante representada por la Loda. Carmen S. Santiago
Lizardl. B demandado no comparetiO.
Previa Juramentatidn de testigo, se desflld prueba en apoyo de las
alegadones de la demanda, quedando elcaso sometldo para dlctamen.
A base de un andtisls de dlcha prueba y da conformldad con las
dlspostdones de bs Artfculos 96 y 97 del Cddlgo CMI de Puerto Rico, 1930,
segdn enmendado, 31 LP.R.A, Secdones 321 y 331, el Tribunal detiara
CON LUGAR la demanda de dlvortio Incoada y en su consecuentia decreta
•

* ? *•*

%-*

'

roto y dlsuelto el vinculo matrimonlo exlstente entre tas partes fptla causat'
v

«

de Separation.

•

• *. *.
■>

El matrimonloaqul dlsuelto se contrajo el 22 de otiubre di 1899 Oriel

A l-/i

Estado de New York y consta Inscrito en el Certlflcado Ntimero ft1999- '
»•
•->

•I

-^

Pet.App. 27a

Sb concede la custodla y patria potestad de la manor, Glanna Delaney
*

f

Cruz Lebrdn, nactda el 30 de novlembre de 1999, a la madre, Sra. Glenda L
Lebrdn Vdzquez.
En cuanto a las relachnes patemos filiates, del padre desearlas
deber& solicltarlas.
Se mantlene la pension alimentarla recomendada por la Examlnadora
de Penslones Alimentarla de $260 mensuales. Segtin el te^flmaolo-deja
demandante, exlste una deuda de $1,204.66.
Durante el matrimonlo las partes no adquirieron bienes nl.ddudas tip • • . ,
cardcter gananclal.

' 'j> u

\

REGISTRESE Y NOTIFIQUESE.

\ ■-J /•=
.* .

Dada en Caguas, Puerto Rico a 17deoctubtedo2008.

BUBEN DARIO BONIl
JUEZ SUPERIOR

CfOTilFiC&ClOJl
i! >’ei*t>,|-s #•» copis iifil y
..

ex. »... •

..... Ml/3 33 aiitiifi y ttxpido

1.(3 lie

’ Zvl, el Irtc ^rech-»

*,

Por.

u»o “tlclal

Vifjnm

m
r

o%cr«

HCN 10 IMS
l«\

m

Wi

SB
:Kh5

E»

STXj
3SSI1K+

S93
~bl3U9l<03

%

Pet.App. 28a

VERBATIM ENGLISH TRANSACTION OF
APPENDIX E
DIVORCE DEFAULT JUDGMENT OF PUERTO RICO TRIAL COURT

Prepared by: Damian Cruz, Petitioner as pro se

;

Pet.App. 29a

IN THE GENERAL COURT OF JUSTICE, TRIAL COURT
IN AND FOR CAGUAS, PUERTO RICO
GLENDA I. LEBRON VAZQUEZ
DEFENDANT
VS.
DAMIAN CRUZ
PLAINTIFF

CIVIL NO. E DI2008-0710
HEARING ROOM: 609
ABOUT: DIVORCE (SEPARATION)

RESOLUTION
The styled lawsuit was filed on June 12th of 2008 under the cause of
separation.
It was obtained jurisdiction over the defendant party through service! not had
responded the lawsuit within the prescribed time by law it was noted the default.
Having set hearing in default for October 17th of 2008, plaintiff appeared
represented by attorney Carmen S. Santiago Lizardi.

The defendant did not

appear.
After sworn of the witness, it was presented the evidence in support the
allegations of the lawsuit leaving the case submitted for resolution.
Base on an analysis of such evidence and in accordance with the provisions of
Articles 96 and 97 of Puerto Rico Civil Code, 1930, as amended, 31 L.P.R.A.,
Sections 321 and 331, the Court grant the divorce lawsuit filed and consequently
decrees broken and dissolved the existent marriage bond between the parties by the
cause of separation.
The marriage hereby dissolved was contracted on October 22nd of 1999 in the
State of New York and it is registered in the Certificate Number X-1999-5249.

Additional material
from this filing is
available in the
Clerk's Office.

